No. 21-276

 

 

IN THE

Supreme Court of the United States

SAFEHOUSE, a Pennsylvania nonprofit corporation,

Petitioner,
v.

U.S. DEPARTMENT OF JUSTICE, et al.,
Respondenis.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF FOR AMICI CURIAE CURRENT
AND FORMER PROSECUTORS AND
LAW ENFORCEMENT LEADERS, AND FORMER
ATTORNEYS GENERAL AND DEPARTMENT
OF JUSTICE OFFICIALS AND LEADERS
IN SUPPORT OF PETITIONER’S
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,984 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 17, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
